                                                 
                                                 
                                                 
 




                                                 




                                             




                   AUDIT OF 

    MONTGOMERY COUNTY DEPARTMENT OF POLICE 

     EQUITABLE SHARING PROGRAM ACTIVITIES 

             ROCKVILLE, MARYLAND 



              U.S. Department of Justice 

            Office of the Inspector General 

                     Audit Division 



             Audit Report GR-30-11-006 

                    August 2011


                            
AUDIT OF MONTGOMERY COUNTY DEPARTMENT OF POLICE 

      EQUITABLE SHARING PROGRAM ACTIVITIES 

              ROCKVILLE, MARYLAND 


                        EXECUTIVE SUMMARY


       The purpose of the Department of Justice (DOJ) asset forfeiture
program is to deter crime by depriving criminals the profits and proceeds of
illegal activities while enhancing the cooperation between federal, state, and
local law enforcement agencies. State and local law enforcement agencies
that participate in the seizure of property and funds may receive a portion of
the proceeds, or an equitable share of the forfeiture, to use for law
enforcement purposes.

      The DOJ Office of the Inspector General conducted an audit to assess
the Montgomery County Department of Police’s (MCPD) tracking and use of
equitable sharing funds. The audit covered MCPD fiscal years (FY) 2009
through 2010, beginning on July 1, 2008 and ending on June 30, 2010.
During these 2 years, the MCPD received over $270,000 as a participant in
the DOJ equitable sharing program.

      Our audit identified weaknesses related to the MCPD’s submission of
its annual Agreement and Certification forms as well as how it tracked
equitable sharing revenues. Additionally, we identified $20,199 in
questioned costs related to expenditures that were unallowable under the
DOJ guidelines for equitable sharing funds. We therefore recommend that
the Criminal Division:

   	 Ensure the accuracy, completeness, and timeliness of the MCPD’s
      submission of its annual Agreement and Certification forms.

   	 Require that the MCPD periodically reconcile its accounting records to
      DOJ reports.

   	 Remedy all unallowable expenditures from FY 2010.

     The results of our audit are discussed in greater detail in the Findings
and Recommendations section of the report.




                                        
AUDIT OF MONTGOMERY COUNTY DEPARTMENT OF POLICE 

      EQUITABLE SHARING PROGRAM ACTIVITIES 

              ROCKVILLE, MARYLAND 



                                 TABLE OF CONTENTS


                                                                                          Page

INTRODUCTION ................................................................................ 1 

 
       DOJ Equitable Sharing Program .................................................... 1 

       Montgomery County ................................................................... 1 

       OIG Audit Approach .................................................................... 2 


FINDINGS AND RECOMMENDATIONS................................................ 3 


       Federal Sharing Agreements and Certification Forms........................ 3 

       Accounting for Equitable Sharing Receipts ...................................... 5 

       Use of Equitable Sharing Funds ..................................................... 7 

       Other Reportable Matters ............................................................. 9 

       Recommendations..................................................................... 10 


SCHEDULE OF DOLLAR-RELATED FINDINGS ................................... 11 


APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ................. 12 


APPENDIX II - MONTGOMERY COUNTY DEPARTMENT OF POLICE’S 

    RESPONSE TO DRAFT REPORT ................................................ 14 


APPENDIX III - OFFICE OF THE INSPECTOR GENERAL ANALYSIS

    AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

    REPORT ….. ............................................................................ 17 



 




                              




                                                 
                             INTRODUCTION 


      The Department of Justice (DOJ) Office of the Inspector General
conducted this audit to assess the tracking and use of DOJ equitable sharing
funds by the Montgomery County Department of Police (MCPD), which has
its headquarters in Rockville, Maryland. The audit covered Montgomery
County fiscal years (FY) 2009 through 2010, beginning on July 1, 2008 and
ending on June 30, 2010. During these 2 years, the MCPD received over
$270,000 as a participant in the DOJ equitable sharing program.

DOJ Equitable Sharing Program

        The DOJ Asset Forfeiture Program is a national law enforcement
initiative that seeks to remove the tools of crime from criminal
organizations, deprive wrongdoers of the proceeds of their crimes, and deter
crime. The program fosters cooperation among federal, state, and local law
enforcement agencies. State and local law enforcement agencies that
directly participate in an investigation or prosecution that result in a federal
forfeiture may request an equitable share of the net proceeds of the
forfeiture.

       Three DOJ components work together to administer the equitable
sharing program – the United States Marshals Service (USMS), the Justice
Management Division (JMD), and the Criminal Division. The USMS is
responsible for transferring asset forfeiture funds from the DOJ to the
receiving state or local agency. JMD manages the Consolidated Asset
Tracking System (CATS), which is used to compile asset distribution reports
to track federally seized assets throughout an asset’s forfeiture lifecycle.
Finally, the Criminal Division’s Asset Forfeiture and Money Laundering
Section (AFMLS) tracks membership of state and local equitable sharing
program participants, updates the equitable sharing program rules and
policies, and monitors the allocation and use of equitably shared funds.

Montgomery County

      Established in 1776, Montgomery County is located in Maryland just
north of Washington, D.C., and has 971,700 residents living across 1,959
square miles. The MCPD is responsible for public safety, preventing and
detecting crime, enforcing the law, and protecting the rights of all citizens.
The MCPD has been under the leadership of Chief J. Thomas Manger since
2004.

     The MCPD became a member of the DOJ asset forfeiture program in
1996 and has participated in investigations led by the Federal Bureau of

                                       1

 
Investigation, the Drug Enforcement Administration, the Bureau of Alcohol,
Tobacco, Firearms and Explosives, and the United States Postal Inspection
Service.

OIG Audit Approach

       We tested compliance with what we considered the most important
conditions of the DOJ equitable sharing program. Unless stated otherwise in
this report, we applied the AFMLS Guide to Equitable Sharing for State and
Local Law Enforcement Agencies (Equitable Sharing Guide) as our primary
criteria. The Equitable Sharing Guide outlines procedures for submitting
equitable sharing requests and discusses the proper use and accounting for
equitable sharing assets.

      To conduct the audit, we tested the MCPD’s compliance with the
following three aspects of the DOJ equitable sharing program:

    	 Federal Sharing Agreements and Certification Forms to 

       determine if these documents were complete and accurate. 


    	 Accounting for equitable sharing receipts to determine whether
       standard accounting procedures were used to track equitable sharing
       assets.

    	 Use of equitable sharing funds to determine if equitable sharing
       cash was used for law enforcement purposes.

     See Appendix I for more information on our objectives, scope and
methodology.




                                     2

 
              FINDINGS AND RECOMMENDATIONS
     The MCPD received over $270,000 in equitable sharing funds
     from DOJ during the 2-year period beginning July 2008 and
     ending June 2010. We found that the MCPD did not adequately
     account for or track $27,998 in DOJ equitable sharing revenues
     received in FY 2010. Although the MCPD maintained its asset
     forfeiture revenues in a county-wide bank account, it required
     USMS e-mail notifications to identify DOJ equitable sharing
     deposits made to this account. As a result, the MCPD did not
     know that the State of Maryland intercepted two DOJ equitable
     sharing outlays totaling $20,962. Furthermore, we also noted
     that the MCPD understated its expenditures in its FY 2010
     Agreement and Certification Form by approximately $36,800.
     The certification forms were also not submitted on time. While
     we found that most expenditures the MCPD made with equitable
     sharing funds were allowable, expenditures on lab technician
     salaries and overtime totaling $20,199 are not allowable under
     DOJ equitable sharing guidelines.

Federal Sharing Agreements and Certification Forms

       According to the Department of Justice (DOJ) Equitable Sharing Guide,
state and local law enforcement agencies participating in the equitable
sharing program must submit an agreement and certification form at the
end of a participating agency’s fiscal year. The form has two sections – the
agreement and the certification. The agreement portion of the form must be
signed by both the head of the law enforcement entity and a designated
official of the local government. By signing and submitting the agreement,
the signatories agree to have the participating agency follow the equitable
sharing program guidelines. The certification section of the form lists the
equitable sharing funds received, a summary of how the funds received were
spent, and any non-cash assets received.

       We obtained copies of the MCPD’s certification forms for FYs 2009 to
2010 to determine whether the forms were accurate. We determined that
the forms were prepared and signed by the proper MCPD officials. To assess
the accuracy of MCPD’s certification forms, we reconciled the total receipts
and expenditures reported in FY 2009 and 2010 to MCPD’s general ledger
and other accounting records used by MCPD personnel to prepare the
certifications. For the FY 2009 certification, reported receipts and
expenditures reconciled correctly to MCPD accounting records. However, on
the FY 2010 certification, the MCPD reported $27,998 in equitable sharing
receipts that had not been listed in its general ledger.

                                     3

 
       Furthermore, we determined that the MCPD understated its
FY 2010 expenditures by a total of $36,778. The MCPD employee who
prepared the FY 2010 certification stated that she did not include
expenditures on the certification form that did not specifically fall within the
form’s defined categories of allowable uses. For example, the MCPD did not
report a $2,040 expense for a vehicle tracking device service because the
certification form did not contain a category that could be used to report this
expense. However, we note that the certification form contains an “other
law enforcement expenses” category that the MCPD should have used to
capture this and other expenses that were not easily categorized. The
FY 2010 agreement and certification form therefore reported an incorrect
amount of receipts and expenditures. Incorrect certification forms adversely
affect the DOJ’s ability to account for the equitable sharing funds provided to
the MCPD accurately. Therefore, we recommend that the Criminal Division
require that the MCPD correct and resubmit its FY 2010 Agreement and
Certification form.

       We also reviewed whether both agreement and certification forms
were submitted on time. The Equitable Sharing Guide states that
participating law enforcement agencies must submit the agreement and
certification form within 60 days of the end of the applicable fiscal year.
Considering that the MCPD fiscal year ends on June 30, these forms were
due to the DOJ by August 30. The MCPD submitted the certification forms
over 9 months after the end of its FY 2009 (226 days late) and more than
5 months after the end of its FY 2010 (113 days late).

       According to the Montgomery County official responsible for preparing
the certification form, a delay in the annual reconciliation of Montgomery
County bank accounts caused these untimely submissions. However, as
shown by Exhibit 1 below, the dates when the certification forms were
submitted were much later than the dates when Montgomery County
completed its bank account reconciliation. As shown in Exhibit 1, although
Montgomery County’s FY 2009 bank account reconciliation was completed on
October 2, 2009, the MCPD did not submit its FY 2009 certification form until
April 13, 2010, or more than six months after the reconciliation was
completed. For FY 2010, although the MCPD completed its account
reconciliation on August 19, 2010, it did not submit its certification form until
124 days later on December 21, 2010.




                                       4

 
    EXHIBIT 1: AGREEMENT AND CERTIFICATION FORM SUBMISSION 

                       (FY 2009 TO 2010) 


                          Certification           Bank      Certification
            Fiscal           Form               Accounts        Form
          Year-End         Due Date            Reconciled    Submitted
           6/30/09          8/30/09              10/2/09       4/13/10
           6/30/10          8/30/10              8/19/10      12/21/10
        Source: OIG review of MCPD records

       Late certification forms risk affecting DOJ oversight of equitable
sharing funds. Therefore, we recommend that the Criminal Division ensure
that the MCPD develops procedures that will help it submit its annual
equitable sharing agreement and certification form on time -- within 60 days
after its end of fiscal year June 30.

Accounting for Equitable Sharing Receipts

       The MCPD conducts collaborative investigations with units of several
different law enforcement agencies. If officers seize assets during these
investigations, such as cash and property items, the MCPD completes and
submits a DOJ Form DAG-71 to request a percentage, or share, of the
proceeds of the seized asset. DOJ compiles reports listing the payments
made to each equitable sharing program participant. According to DOJ data,
from FY 2009 to 2010, the MCPD recorded equitable sharing receipts totaling
over $270,000, as shown in Exhibit 2.

          EXHIBIT 2: MCPD EQUITABLE SHARING RECEIPTS
                       (FY 2009 TO 2010)

                                             Equitable Sharing
                      Fiscal Year              Receipts ($)
                         2009                           109,595
                         2010                           161,220
                              TOTAL                  $ 270,815
                 Source: MCPD certification forms

      The DOJ Equitable Sharing Guide requires that law enforcement
agencies use standard accounting procedures and internal controls to track
and account for equitable sharing receipts. Such accounting procedures
include establishing a separate revenue account or code that can be used
only for DOJ equitable sharing funds. The MCPD receives equitable sharing
funds in the same Montgomery County bank account used to receive other
federal payments. During FY 2009 and 2010, the MCPD received equitable
sharing funds in this account via electronic funds transfers (EFT) made by

                                          5

 
the USMS using E-Share.1 However, because E-Share is used to issue
disbursements for both equitable shares and grants, a DOJ EFT is not
necessarily a result of shares of asset proceeds. Therefore, for each
equitable sharing EFT, the USMS sends an automatically-generated e-mail to
a designated MCPD recipient notifying that an equitable sharing payment has
been made.

      As part of the standard accounting procedures and internal controls
promulgated by the Equitable Sharing Guide, MCPD personnel should verify
the deposit of funds after receiving an EFT notification. Because the bank
account belongs to Montgomery County government, the MCPD confirms
receipt of the EFT via online access to the bank account. The MCPD then
requests that the Montgomery County Treasury Department code the funds
received with the unique DOJ equitable sharing accounting code.2

      To test the accuracy of the equitable sharing receipts for FY 2009 and
FY 2010, we reconciled the total receipts recognized for each fiscal year in
the MCPD’s accounting system to the total equitable sharing receipts the
MCPD reported on its annual agreement and certification forms. We also
tested a judgmental sample of six receipts totaling $147,515, or more than
54 percent of the total MCPD reported receipts. Despite the tracking
procedures employed by the MCPD and noted above, we identified a total of
$28,000 in equitable sharing revenues that the MCPD had not accounted for
in FY 2010.

      On July 27, 2009, DOJ disbursed $7,038 to Montgomery County’s
revenue fund but the Montgomery County Treasury Department incorrectly
recorded this transaction as a U.S. Department of the Treasury receipt.
Consequently, the MCPD’s general ledger understated the MCPD’s DOJ
equitable sharing revenues by $7,038 for FY 2010. The MCPD corrected this
miscoding during audit fieldwork.


                                                            
              1
          E-Share is the United States Marshals Service program used to make equitable
sharing payments to federal, state, and local law enforcement agencies through EFT.
E-Share changes equitable sharing payments from a paper U.S. Treasury check to a direct
deposit into the state and local law enforcement agency’s bank account.
              2
          Based on our interviews, we note that MCPD personnel depend upon the USMS e-
mail EFT notifications to alert them when DOJ equitable sharing monies have been
deposited in the Montgomery County bank account. Without an e-mail notification, MCPD
personnel are not able to readily identify DOJ equitable sharing deposits in Montgomery
County’s bank account. Thus in the event that the MCPD does not receive the USMS e-mail,
the MCPD is not able to identify the receipt of equitable sharing funds and cannot request
that the funds are coded and tracked properly.


                                                               6

 
      Two DOJ disbursements totaling $20,962 and remitted on
August 27, 2009 were intercepted by the state of Maryland under the
Federal Liability Offset Program.3 As a result, the MCPD’s list of bank
deposits for August 2009 showed two individual deposits of just $1 each
from the Maryland Central Collection Unit, the state entity that intercepted
the funds. Based on our review of FY 2010 equitable sharing supporting
documentation, MCPD personnel were unaware of the status of these two
deposits and told us that they did not receive an EFT notification e-mail.

      According to the Director of the Maryland Central Collection Unit, the
State of Maryland remitted the intercepted funds to the Montgomery County
Department of Health and Human Services (MCHHS) on December 2009.4
However the MCHHS did not return or otherwise make available these funds
to the MCPD until we inquired about the status of these funds during our
audit fieldwork. On June 8, 2011 – approximately 18 months after the funds
were returned – the MCHHS transferred the funds back to the MCPD.

      These two deficiencies highlight that the MCPD needs to improve how
it adequately reconciles equitable sharing requests to actual receipts. We
therefore recommend that the Criminal Division ensure that the MCPD
periodically reconcile the amount of equitable sharing revenues it posts to its
general ledger to the amounts disbursed by the DOJ.

Use of Equitable Sharing Funds

      Generally, agencies participating in the DOJ equitable sharing program
should use equitable sharing funds for law enforcement purposes. As
summarized by Exhibit 3, the Equitable Sharing Guide outlines the allowable
and unallowable uses for equitable sharing funds.5




                                                            
              3
          The Liability Offset Program allows a state to seize federal refunds and use them to
pay unpaid state tax liabilities. According to MCPD personnel, these funds were intercepted
to offset an unpaid liability by the Montgomery County Department of Health and Human
Services to the State of Maryland.
              4
          Maryland Treasury Offset Program Technical Bulletin SR10-14 (October 8, 2010)
states that debts owed by a state or local government are not eligible for offset. Thus, the
unpaid liability by the MCHHS was not eligible for offset under the program.
              5
        The DOJ Equitable Sharing Guide includes the complete list of allowable and
unallowable uses for equitable sharing funds.

                                                               7

 
        EXHIBIT 3: SUMMARY OF ALLOWABLE AND UNALLOWABLE USES 

                     FOR EQUITABLE SHARING FUNDS 



                 Allowable Uses                                           Unallowable Uses
          Law Enforcement Investigations                              Extravagant Expenditures
            Law Enforcement Training                                     Food and Beverages
           Law Enforcement Equipment                                   Education-Related Costs
                                                                Uses Contrary to the Laws of the State
            Asset Accounting and Tracking
                                                                          or Local Jurisdiction
                                                                Non-Official Government Use of Shared
    Law Enforcement Awards and Memorials
                                                                                Assets
            Law Enforcement Travel and                          Use of Forfeited Property by Non-Law
                  Transportation                                       Enforcement Personnel
          Law Enforcement and Detention                         Salaries and Benefits of Current Law
                     Facilities                                        Enforcement Personnel
Source: DOJ Equitable Sharing Guide

      MCPD personnel submit expenditure requests through the MCPD chain
of command, where the Director of the Special Investigations Division (SID)
provides final approval. The Deputy Director of SID told us that the SID is
responsible for ensuring the allowability of expenditures made with equitable
sharing funds prior to approval.

      The MCPD spent a total of $292,232 in equitable sharing funds in
FYs 2009 and 2010. The MCPD used equitable sharing funds to purchase
laboratory equipment, wiretap technology, firearms, Global Positioning
System (GPS) tracking services, and construction. Equitable sharing funds
were also used to replenish cash used as “buy money” on undisclosed
narcotics investigations.

Unallowable Expenditures 

      We judgmentally sampled 16 transactions totaling $277,286 (or
95 percent of equitable sharing outlays) to assess whether these
expenditures were supported and allowable under equitable sharing
guidelines. The sample included high-dollar purchases, as well as an
assortment of expenditures selected due to the potential for impermissible
or improper use.6 We evaluated the nature and purpose of these


                                                            
              6
         As noted above, the MCPD omitted approximately $36,000 of expenditures from its
FY 2010 Agreement and Certification form. We selected an additional six expenditures
(from four vendors) from those purchases that were omitted from the certification.


                                                               8

 
expenditures and determined that the sampled items appeared to
supplement and not supplant the MCPD’s budgeted funds.
      
       Our review noted two unallowable MCPD equitable sharing expenses
incurred in FY 2010: (1) $11,368 in laboratory chemist salary payments and
(2) $8,831 in laboratory chemist overtime payments. According to the
AFMLS, the use of equitable sharing funds for salaries and overtime for
laboratory chemists who are not sworn officers is not permitted under the
equitable sharing guidelines. Therefore, we recommend that the Criminal
Division remedy $20,199, the total of the laboratory chemist salaries
($11,368) and overtime ($8,831) expenditures from FY 2010 as unallowable
costs.

Other Reportable Matters

      Under the Equitable Sharing Guide, the use of equitable sharing funds
as buy money is permissible. We reviewed MCPD procedures for expending
equitable sharing funds to purchase narcotics undercover and found
weaknesses in the methods used by the MCPD to replenish these funds.

       The MCPD SID maintains about $10,000 in cash as buy money in a
safe housed at an undercover location. When SID personnel expend
approximately $5,000 of this amount, the administrative sergeant submits a
request to the SID Director to replenish the funds. The request notes how
the expended funds have been used, specifically whether these were used to
conduct undercover narcotics purchases or to pay for informant payments.
If the request is approved, the Montgomery County Finance Department
sends a check to a responsible official’s home address. The Deputy Director
then cashes the check at a local bank and subsequently remits the funds to
the buy money safe.

      Although our audit did not find missing funds, we note that the MCPD
has not established an independent check to ensure that the cash requested
and the cash replenished is the same. We recommend that the Criminal
Division ensure the MCPD implement procedures to include an independent
check of all cash replenishments.




                                     9

 
       Montgomery County collectively tracks interest income on different
types of forfeiture-related funds (local, DOJ, and U.S. Department of the
Treasury). The MCPD reported on its certification forms that it earned
interest income of $17,964 in FY 2009 and $2,021 in FY 2010.7 The MCPD
reported these figures based on the interest earned on DOJ funds in
proportion to the total amount of revenues collected from each of these
sources for the fiscal year. We determined that the methodology the MCPD
used to allocate interest was not proportional to the revenue it collected. As
a result, the amount of interest reported as earned on the certification forms
was not correct. For FY 2009, the interest income was overstated on the
certification form by $1,897.

Recommendations

              We recommend that the Criminal Division:

              1.	        Require the MCPD to correct and resubmit its FY 2010 Agreement
                         and Certification form.

              2.	        Ensure that the MCPD develops procedures that will help it submit
                         its annual equitable sharing agreement and certification form on
                         time (within 60 days after its end of fiscal year June 30).

              3.	        Ensure that the MCPD periodically reconcile the amount of
                         equitable sharing revenues it posts to its general ledger to the
                         amounts disbursed by DOJ.

              4.	        Remedy $20,199 associated with the two unallowable FY 2010
                         expenditures for laboratory chemist salaries ($11,368) and
                         overtime ($8,831).

              5.	        Ensure the MCPD implement procedures to include an independent
                         check of all cash replenishments.




                                                            
              7
          According to the DOJ Equitable Sharing Guide, interest income earned on forfeited
cash receipts must be deposited into the agency’s equitable sharing revenue account and is
subject to the same use restrictions as equitable sharing funds.

                                                               10 

 
                         SCHEDULE OF DOLLAR-RELATED FINDINGS 



                                                                      Amount    Page
                                                                        ($)

Questioned Costs8

Unallowable Expenditures

              Laboratory chemist salary                                11,368    9

              Laboratory chemist overtime                               8,831    9



Total Questioned Costs:                                               $20,199




 




                                                            
              8
          Questioned Costs are monies spent that, at the time of the audit, do not comply
with legal requirements, or are unsupported, unnecessary, or unreasonable. They can be
recoverable or non-recoverable.

                                                               11 

 
                                                                 APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

Objective

      The objective of the audit was to assess whether the Montgomery
County Department of Police (MCPD) accounted for equitable sharing funds
properly and used such revenues for allowable purposes defined by
applicable guidelines. We tested compliance with what we considered were
the most important conditions of the Department of Justice’s (DOJ) equitable
sharing program. We reviewed laws, regulations, and guidelines governing
the accounting for and use of DOJ equitable sharing receipts, including
pertinent versions of the Criminal Division’s Guide to Equitable Sharing for
State and Local Law Enforcement Agencies.

      Unless otherwise stated in our report, the criteria used during the
audit were contained in this document.

Scope and Methodology

      Our audit concentrated on equitable sharing receipts received by the
MCPD from the DOJ between July 1, 2008 and June 30, 2010. During FYs
2009 and 2010, there were receipts totaling more than $270,000. We
tested a judgmental sample of six receipts totaling $147,515 in our
assessment of MCPD receipt accounting and a judgmental sample of 16
disbursements, totaling $277,286 to evaluate MCPD’s use of equitable
sharing funds. The judgmental sample of MCPD expenditures comprised
approximately 95 percent of the total expenditures made with equitable
sharing funds during the audit period. We applied our judgmental sampling
design to obtain a broad exposure to numerous facets of the disbursements
reviewed, such as dollar amounts. This non-statistical sample design did not
allow us to project results of our testing to the entire universe of equitable
sharing disbursements made in the scope of our audit.



                                      12 

 
       We performed audit work at MCPD headquarters and an MCPD
undisclosed location in Maryland. To accomplish the objectives of the audit,
we interviewed MCPD officials and examined records, related revenues, and
expenditures of equitable sharing revenues. In addition, we relied on
computer-generated data contained in the DOJ Detail Distribution Report for
determining equitably shared revenues and property awarded to the MCPD
during the audit period. We did not establish the reliability of the data
contained in the DOJ equitable sharing system as a whole. However, when
the data used is viewed in context with other available evidence, we believe
the opinions, conclusions, and recommendations included in this report are
valid.

       Our audit specifically evaluated the MCPD’s compliance with three
essential equitable sharing guidelines: (1) Federal Sharing Agreements and
Annual Certification Reports, (2) Accounting for equitable sharing receipts,
and (3) Use of equitable sharing funds. In planning and performing our
audit, we considered internal controls established and used by the MCPD and
its county government over DOJ equitable sharing receipts to accomplish our
audit objectives. However, we did not assess the MCPD’s financial
management system’s reliability, internal controls, or whether it, as a whole,
complied with laws and regulations.

      Our audit included an evaluation of two county-wide audits conducted
of the County of Montgomery, of which the auditee is a sub-unit, by Clifton
Gunderson, LLP. The results of these audits were reported in the Single
Audit Report that accompanied the Comprehensive Annual Financial Report
for the years ended June 30, 2009 and 2010. The Single Audit Reports were
prepared under the provisions of Office of Management and Budget Circular
A-133. We reviewed the independent auditor’s assessments, which
disclosed no control weaknesses or significant noncompliance issues related
specifically to the auditee.
 
 
 
 
 
 
 
 
 
 
 
 
 
 

                                     13 

 
                                                                                 APPENDIX II

       MONTGOMERY COUNTY DEPARTMENT OF POLICE’S 

             RESPONSE TO THE DRAFT REPORT 


August 19, 2011

U.S. Department of Justice
Office of the Inspector General
Attention: Troy M. Meyer, Regional Audit Manager

Dear Mr. Meyer:

        The Montgomery County Department of Police has reviewed the draft audit report on
Equitable Sharing Funds Awarded to the Montgomery County Department of Police (MCPD) by
the Department of Justice. The audit concluded that there were some weaknesses noted as well
as discrepancies. Our Department has analyzed these weaknesses and discrepancies and
provides the attached responses to the Recommendations.

        In addition to Recommendations 1-5, Montgomery County also will ensure that interest
accrued on forfeiture-related funds is attributed to the appropriate accounts as referenced in page
9 of the draft audit report. Rather than being the responsibility of the Police Department, the
Montgomery County Department of Finance will calculate and credit accrued interest to the
appropriate accounts.

       On behalf of the MCPD, I thank you for your assistance and guidance. We strive for
continual improvement and value the relationship our two agencies have enjoyed for many years.
Through these efforts and others, together we will increase effectiveness and quality of the
system.

                                              Sincerely,




                                              J. Thomas Manger
                                              Chief of Police



Enclosure
                                                                                                       




                                                14 

 
                                       Attachment 

                           MCPD responses to Recommendations 1-5



Recommendation #1: Require the MCPD to correct and resubmit its FY2010 Agreement and
Certification Form.

Response: The MCPD will file an amended FY10 Agreement and Certification Form to reflect
the correct interest income as well as all expenditures related to the Department of Justice asset-
sharing fund, as noted on pages 3 and 4 of the draft audit report. This will also include
transferring the expenditures of unallowable overtime and salaries out of the Justice account to
the County asset-forfeiture account (see response 4 for further explanation).

Recommendation #2: Ensure that the MCPD develops procedures that will help it submit its
annual equitable-sharing agreement and certification form on time (within 60 days after its end
of fiscal year June 30).

Response: The Montgomery County Department of Police now has procedures in place to
ensure that certification reports are filed in a timely manner, as noted on pages 4 and 5 of the
draft audit report. This will be accomplished by analyzing expenditures on a quarterly basis by
obtaining preliminary year-end data from the Montgomery County Department of Finance in
order to begin preparation of the annual certification report weeks earlier. Further, supervisory
controls will be established to ensure that key filing dates are met.

Recommendation #3: Ensure that the MCPD periodically reconciles the amount of equitable
sharing revenues it posts to its general ledger to the amounts disbursed by DOJ.

Response: Montgomery County Police had felt it was reasonable to expect that all funds sought
from Justice using the DAG process would be received. It turns out that, unfortunately, by a
process yet undetermined, the State of Maryland is able to intercept payments from Justice,
without our knowledge. We are currently exploring our options to discontinue this process. We
have, however, established procedures by analyzing expenditures on a quarterly basis by
obtaining preliminary year-end data from the Montgomery County Department of Finance in
order to begin preparation of the annual certification report. As stated in Recommendation #2,
the MCPD now has procedures in place to ensure that all revenues are accounted for and posted
to the general ledger. Procedures have been established to reconcile quarterly the equitable
asset-sharing accounts, which will address recommendations and findings in pages 5-8 of the
draft audit report. This will include receiving a Detailed Disbursement Ledger from DOJ and
reconciling it with the general ledger as well as with the EFT payments received. Staff has now
been trained on specific procedures to post specific types of expenditures in the format that is
required.




                                                15 

 
Recommendation #4: Remedy $20,199 associated with the two unallowable FY2010
expenditures for Laboratory Chemist salaries ($11,368) and overtime ($8,831).

Response: This expenditure will be moved from the Justice account to the County asset
forfeiture account, thereby increasing the Justice account balance by $20,199. This finding is
referenced on pages 8 and 9 of the draft audit report. This transaction will be noted in the
amended FY2010 Annual Certification Report. It should be noted that this type of expenditure
was a permissible expense up through 2009. At the time of preparation of the FY10 Drug
Enforcement Fund Budget it was included in error as being appropriated utilizing Justice funds.
A procedure is now in place for all future expenditures to be duly noted on the request as to
which account the funds are being spent. This allows for additional review for permissible uses.

Recommendation #5: Ensure the MCPD implements procedures to include an independent
check of all cash replenishments.

Response: The Montgomery County Department of Police has implemented the following
procedures as it relates to replenishments to the Drug Enforcement Fund as noted in the draft
audit report on page 9. The Administrative Sergeant will prepare the actual replenishment
memo. Once it is approved by the Division Director, it will be forwarded to the Program
Specialist for processing and review. The Deputy Director in charge of the Drug Enforcement
Section will subsequently receive the replenishment check and will cash the check. Upon
bringing the cash back to the Special Investigations Division, the Deputy Director in charge of
the Drug Enforcement Section will have either the Director of the Special Investigations
Division or the Deputy Director in charge of the Criminal Enterprise Section conduct a second
count of the cash. This cash will be reviewed for consistency with the replenish-memo amount.
This dual-control accounting will be duly noted in a logbook maintained by the Deputy Director
in charge of the Drug Enforcement Section. Both individuals who count the cash will confirm
the count by signing the logbook. A copy of the replenishment request will also be kept within
the logbook.




                                              16 

 
                                                               APPENDIX III

               OFFICE OF THE INSPECTOR GENERAL 

              ANALYSIS AND SUMMARY OF ACTIONS 

                NECESSARY TO CLOSE THE REPORT


      The Department of Justice Office of the Inspector General (OIG)
provided a draft of this audit report to the Criminal Division and the
Montgomery County Department of Police (MCPD). We incorporated MCPD’s
response as Appendix II of this final report. However, the audit
recommendations are unresolved because the Criminal Division declined to
provide comments on the draft report. The following provides the OIG
analysis of MCPD’s response and a summary of actions necessary to resolve
each report recommendation.

    1. Unresolved. The MCPD concurred with our recommendation for
       MCPD to correct and resubmit its fiscal year (FY) 2010 Agreement and
       Certification Report. The MCPD stated that it will file an amended FY
       2010 Agreement and Certification Report reflecting corrected interest
       income as well as the errors noted in its reported receipts and
       expenditures.

       However, this recommendation is unresolved because the Criminal
       Division did not respond to the draft report. This recommendation can
       be resolved once the OIG and the Criminal Division reach agreement
       on corrective action.

    2. Unresolved. The MCPD concurred with our recommendation to
       develop procedures that will help it submit its annual Agreement and
       Certification Report on time (within 60 days after June 30, which is the
       end of its fiscal year). The MCPD stated that it will analyze
       expenditures on a quarterly basis from the Montgomery County
       Department of Finance in order to help submit the Annual Certification
       Report prior to the deadline. Also, the MCPD will implement
       supervisory controls to ensure that the Annual Certification Report is
       filed on time.

       However, this recommendation is unresolved because the Criminal
       Division did not respond to the draft report. This recommendation can
       be resolved once the OIG and the Criminal Division reach agreement
       on corrective action.




                                      17 

 
    3. Unresolved. The MCPD concurred with our recommendation to
       reconcile the amount of equitable sharing revenues it posts to its
       general ledger to the amounts disbursed by DOJ. The MCPD stated
       that as part of its implementation of a quarterly analysis over its
       financial data in response to recommendation 2 above, it will reconcile
       its equitable sharing accounts to the Detailed Disbursement Ledger
       from DOJ.

       However, this recommendation is unresolved because the Criminal
       Division did not respond to the draft report. This recommendation can
       be resolved once the OIG and the Criminal Division reach agreement
       on corrective action.

    4. Unresolved. The MCPD concurred with our recommendation to
       remedy $20,199 associated with two unallowable FY 2010
       expenditures. The MCPD stated that they will correct this in their
       accounting system as well as in their resubmission of the FY 2010
       Annual Certification Report as part of recommendation 1 above. The
       MCPD will also implement procedures to document additional review
       for allowability of future expenditures.

       However, this recommendation is unresolved because the Criminal
       Division did not respond to the draft report. This recommendation can
       be resolved once the OIG and the Criminal Division reach agreement
       on corrective action.

    5. Unresolved. The MCPD concurred with our recommendation to
       implement procedures to include an independent check of all cash
       replenishments. The MCPD stated that it will designate either the
       Director of the Special Investigations Division or the Deputy Director in
       charge of the Criminal Enterprise Section to perform an independent
       count of the cash replenishment. This will be documented in the
       logbook along with a copy of the replenishment request.

       However, this recommendation is unresolved because the Criminal
       Division did not respond to the draft report. This recommendation can
       be resolved once the OIG and the Criminal Division reach agreement
       on corrective action.




                                       18 

 
